                        U.S. Department of Agriculture

                           Office of Inspector General
                                  Great Plains Region




             Audit Report

Animal and Plant Health Inspection Service
            Wildlife Services
           Aircraft Acquisition




                               Report No. 33099-1-KC
                                     September 2004
Executive Summary
Animal and Plant Health Inspection Service, Wildlife Services Aircraft Acquisition
(Audit Report No. 33099-1-KC)

Results in Brief               At the request of a U.S. Senator, we enquired into allegedly improper
                               financial arrangements between the Animal and Plant Health Inspection
                               Service (APHIS) Wildlife Services (WS) and an industry group. A
                               constituent of the senator complained after learning that the financial
                               arrangements in question affected a contract he had with the WS for
                               lease of an aircraft.

                               WS uses a variety of lethal and non-lethal means to control livestock
                               predation. WS provides the services of aircraft that have been
                               specifically modified to hunt livestock predators. WS may buy,
                               borrow, or lease in order to acquire the aircrafts’ services.

                               We determined that WS personnel acted inappropriately in facilitating
                               the industry group’s purchase of an aircraft for use in WS’ wildlife
                               predation program in Wyoming. The WS executed an improper
                               financial arrangement with an aircraft repair company (company) to
                               pay for modifications that had already been made to the plane totaling
                               over $25,000, as well as provided an engine valued at $20,000, when it
                               did not have a binding agreement with either the company or the
                               industry group. The WS entered into a cooperative agreement with the
                               industry group at a later date to use this plane in its wildlife predation
                               program.

                                  WS May Have Violated Appropriations Law

                                  WS officials obligated funds in order to pay for modifications made
                                  to the plane in prior fiscal years, at a time when WS did not have a
                                  legally binding agreement with the company. When the industry
                                  group ultimately purchased the plane from the company, the
                                  purchase price was discounted for the modifications that WS paid
                                  for and an engine that WS provided. Without a binding agreement
                                  between WS and the company to pay for these modifications, WS
                                  may have violated appropriations law by obligating Federal funds
                                  where no bona fide need existed. The WS did not have a valid
                                  contract with the company to acquire either goods or services for the
                                  Government.       We concluded that the WS executed these
                                  transactions simply to facilitate the purchase of the aircraft by the
                                  industry group. Federal law1 requires that obligations be made for
                                  payment of expenses properly incurred or for contracts properly
                                  made within the period of appropriation availability; the agency
1
    31 U.S. Code (U.S.C.) 1501 and 1502.

USDA/OIG-A/33099-1-KC                                                                                   i
                          acquiring the goods or services must have a bona fide need for the
                          goods or services in that fiscal year.

                          In fiscal year 1999, an aircraft repair company made modifications
                          to a Piper Super Cub that brought the plane up to the standards
                          required for use in WS’ wildlife predation program. WS did not
                          have a written agreement with the aircraft company to obligate
                          Federal funds to pay for the modifications. Instead, the company
                          made the modifications in anticipation of leasing the plane to the
                          Government.

                          During fiscal year 2000, the company negotiated the sale of the
                          plane to the industry group. On August 1, 2000, the company drew
                          up a buy/sell agreement which specified that the sale of the aircraft
                          was contingent on WS paying $15,050 for equipment and
                          modifications, some of which were installed the previous fiscal year
                          (fiscal year 1999). The buy/sell agreement did not include WS as a
                          signatory. However, when a WS Regional official received the
                          company’s bill for $15,050, he urged WS to pay it, explaining that,
                          due to short timeframes and the need to initiate aircraft
                          modifications, a request for a purchase order was previously
                          overlooked. Marketing and Regulatory Programs Business Services
                          personnel approved the request and issued a purchase order and
                          check the next day.

                          On November 2, 2000, fiscal year 2001, the company billed for
                          additional modifications totaling over $10,000, made in
                          October 2000. Again, no binding agreement existed between the
                          company and WS to authorize payment for modifications made to
                          the plane. Also, the cooperative agreement between the WS and the
                          industry group still had not been finalized. To pay these expenses, a
                          WS budget analyst split the $10,000 bill into five invoices of less
                          than $2,500 each. Each of these smaller invoices was then paid
                          using multiple purchase cards to avoid using a warranted purchase
                          officer to ratify the transaction.

                          The Federal Acquisition Regulation (FAR)2 and the U.S.
                          Department of Agriculture (USDA) Micro-Purchase Guide
                          governing the use of purchase cards expressly forbids splitting
                          purchases merely to stay within the single purchase limit. Since the
                          five separate invoice payments represented two larger purchases that
                          exceeded the cards’ limits, WS personnel violated procurement
                          regulations. In addition, WS personnel circumvented controls
                          designed to ensure that the agency’s funding is appropriately
                          obligated.
2
    FAR Part 13.103(c).

USDA/OIG-A/33099-1-KC                                                                        ii
                                  WS Did Not Establish Ownership of the Aircraft

                                  After the aircraft repair company had been paid, WS entered into a
                                  cooperative agreement with the industry group that now owned the
                                  plane. Although WS had contributed over half the plane’s purchase
                                  price in monies and an engine,3 the cooperative agreement did not
                                  protect the agency’s ownership interests. WS personnel originally
                                  stated that paying for the modifications constituted ownership of the
                                  parts used to modify the plane (e.g., a shooting window, extended
                                  landing gear, etc.). A representative of the industry group countered
                                  that, excepting the engine, there were no provisions or
                                  understanding that APHIS maintained ownership.

                                  WS officials argued that the agency would eventually recoup the
                                  costs, since the group provided the services of the plane to WS at a
                                  rate below that of a previous contractor (the complainant).
                                  However, neither the terms of the cooperative agreement and/or
                                  subsequent lease of the aircraft by WS supported the WS’
                                  contention that this transaction was cost justified.

                                  WS Does Not Have Clear Policies Regarding Its Aerial Acquisition
                                  Program

                                  WS uses considerable resources to effect its aviation program but
                                  lacks a cohesive management structure to control decisions to
                                  acquire aircraft. In particular, WS does not have written policies
                                  and procedures regarding the use of cooperative agreements or the
                                  procurement process in its aerial acquisition program. Also, there is
                                  insufficient management oversight; full authority and responsibility
                                  for aircraft acquisition is delegated to the Regional level. The
                                  aggregate effect of WS’ acquisition strategies in this case gives the
                                  appearance that the agency intended to acquire the services of
                                  aircraft owned only by the industry group.

                                  As a program under the parent agency APHIS, WS and its Regions
                                  rely on the APHIS Agreements Management Manual4 to govern
                                  their aircraft acquisition processes. However, the manual was meant
                                  to apply to all APHIS programs; the manual is broadly worded and
                                  does not set policy for acquiring aircraft. The manual, for example,
                                  does not make clear whether the delivery of an airplane for its aerial
                                  hunting activities would warrant a contract, or if WS’ engagement in

3
  The group paid $34,500, the engine was worth approximately $20,000, and APHIS contributed over $25,000, for a
total of $79,500. The group’s contribution, then, represents over 43 percent of this total, leaving WS’ contributions
valued at 57 percent.
4
  APHIS Agreements Management Manual, dated July 1997.

USDA/OIG-A/33099-1-KC                                                                                             iii
                        aerial hunting in a third party’s plane should rise to the level of a
                        cooperative agreement. Without WS-specific policy, but with full
                        authority for acquiring aircraft, WS Regional personnel did not
                        exercise prudent discretion in obligating and expending Federal
                        funds.

                        During the course of our enquiry, we also determined that WS did
                        not properly process a Freedom of Information Act (FOIA) request.
                        WS personnel released a copy of at least one record to the
                        complainant without consulting the agency’s FOIA Coordinator.
                        The release of information related to an entity engaged in a
                        cooperative arrangement with the USDA could constitute violation
                        of a court injunction limiting such disclosures.

Recommendations
In Brief           We are recommending that APHIS request a written legal opinion from
                   the Office of the General Counsel (OGC) as to whether financial and
                   equipment contributions, exceeding 50 percent of the purchase price for
                   the fixed-wing aircraft and paid without a binding agreement or a bona
                   fide need, constitute a violation of appropriations law. If a violation
                   has occurred, determine whether disciplinary action is appropriate.

                   We are also recommending that WS develop policies and procedures
                   specific to WS’ aerial acquisition program, including the establishment
                   of management controls to ensure compliance.

                   We are further recommending that WS consult with the OGC regarding
                   whether the WS personnel violated the court injunction limiting
                   distribution or release of information pertaining to cooperative entities.

APHIS Response
                   APHIS provided a written response, dated August 31, 2004, to the draft
                   report. In its response, APHIS did not generally dispute the
                   presentation of facts and transpired events; however, APHIS provided
                   explanations for their decisions and actions for terminating its contract
                   with the complainant. APHIS acknowledged that WS provided an
                   engine maintained in inventory for the aircraft purchased by the
                   industry group. APHIS further acknowledged that providing the engine
                   was critical to the purchase of the aircraft by the industry group.
                   APHIS disagreed that the engine should be considered a contribution
                   toward the industry group purchase of the aircraft as WS maintains
                   ownership of the engine.

                   APHIS also disagreed with the audit position related to bona fide need.
                   APHIS stated that the audit focused too exclusively on financial
                   ramifications and did not adequately consider the safety issues that

USDA/OIG-A/33099-1-KC                                                                      iv
                   served as basis for the WS decision to replace the aircraft under
                   contract. APHIS agreed to request a legal opinion from OGC as to
                   whether the WS contributions of funding and equipment to support the
                   industry group purchase of an aircraft constituted a violation of Federal
                   Appropriations Law.

                   The APHIS response, however, was generally responsive to the audit
                   recommendations. Excerpts from the APHIS response are incorporated
                   into the Findings and Recommendations section of the report, where
                   appropriate. The APHIS response is included in its entirety as exhibit
                   B of this report.

OIG Position
                   This report focused solely on the propriety of the financial
                   arrangements between APHIS and the industry group in the purchase of
                   an aircraft for use in WS’ wildlife predation program in Wyoming.
                   APHIS’ actions in terminating its contractual relationship with the
                   complainant were addressed by the Government Accountability Office
                   (GAO) and the U.S. Court of Federal Claims. The determination as to
                   whether any APHIS officials may have violated Federal Appropriations
                   Law will be made by the OGC.

                   We consider the APHIS response adequate to reach management
                   decision for Recommendations Nos. 1, 8, and 9.             Additional
                   information or clarification is needed from APHIS before management
                   decision can be reached for Recommendations Nos. 2, 3, 4, 5, 6, 7, and
                   10. Details of the information or clarification needed to reach
                   management decision for the remaining recommendations are included
                   in the Findings and Recommendations section of the report.




USDA/OIG-A/33099-1-KC                                                                     v
Abbreviations Used in This Report

APHIS               Animal and Plant Health Inspection Service
BPA                 Blanket Purchase Agreement
CFR                 Code of Federal Regulations
Company             Aircraft Repair Company
Contractor          Complainant
FAR                 Federal Acquisition Regulation
FOIA                Freedom of Information Act
GAO                 Government Accountability Office
MRPBS               Marketing and Regulatory Programs Business Services
OGC                 Office of the General Counsel
OIG                 Office of Inspector General
PCMS                Purchase Card Management System
U.S.C.              U.S. Code
USDA                U.S. Department of Agriculture
WS                  Wildlife Services




USDA/OIG-A/33099-1-KC                                                     Page vi
Table of Contents

Executive Summary ....................................................................................................................... i

Abbreviations Used in This Report ............................................................................................ vi

Background and Objectives ......................................................................................................... 1

Findings and Recommendations.................................................................................................. 3

   Section 1. Violations of Law.....................................................................................................3
      Finding 1      WS’ Payments for Aircraft Repairs May Have Violated
                     Appropriations Law....................................................................................... 3
                          Recommendation No. 1.......................................................................... 8
                          Recommendation No. 2.......................................................................... 9
                          Recommendation No. 3........................................................................ 10
      Finding 2      WS Violated Procurement Regulations by Splitting Invoice Amounts
                     Into Five Separate Payments to be Paid by Purchase Cards ....................... 10
                          Recommendation No. 4........................................................................ 11
   Section 2. Management Controls Over WS Aerial Acquisition Program are Lacking....13
      Finding 3      WS Management Did Not Provide an Adequate Control Structure............ 13
                          Recommendation No. 5........................................................................ 16
                          Recommendation No. 6........................................................................ 16
      Finding 4      WS Senior Management Did Not Ensure That Acquisition Decisions
                     Complied With Internal Study Results........................................................ 17
                          Recommendation No. 7........................................................................ 19
                          Recommendation No. 8........................................................................ 20
   Section 3. Freedom of Information Act.................................................................................21
      Finding 5      APHIS WS Policies and Procedures for Processing of FOIA Requests
                     Were Not Always Followed ........................................................................ 21
                          Recommendation No. 9........................................................................ 22
                          Recommendation No. 10...................................................................... 22

Scope and Methodology.............................................................................................................. 24

Exhibit A – Summary of Monetary Results ............................................................................. 26
Exhibit B – APHIS Response ..................................................................................................... 27




USDA/OIG-A/33099-1-KC                                                                                                          Page vii
Background and Objectives
Background         The Animal and Plant Health Inspection Service (APHIS) offers
                   programs to control livestock predation through its program office,
                   Wildlife Services (WS). WS uses a variety of lethal and non-lethal
                   means to carry out this mission. WS provides the services of aircraft
                   that have been specially modified to hunt livestock predators. Aerial
                   operations have been part of the WS since the 1940s. In 1972,
                   Congress banned the use of toxicants for predator control and increased
                   the funding for WS aerial operations, thus increasing the number of
                   aircraft flying hours.

                   WS has experienced five fatal accidents since 1972; three of which
                   occurred in 1997 and 1998. In January 1998, three accidents involving
                   contract helicopters (rotary aircraft) raised concerns regarding low bid
                   contracting procedures, and aerial hunting operations were stopped,
                   pending review. On January 27, 1998, a task force met to review WS’
                   aerial safety policies and training programs. A short-term strategy was
                   adopted to conduct a formal review of the contract pilot training
                   program and contracting procedures.

                   In March 1998, a fatal accident involving a fixed wing aircraft
                   occurred, resulting in a complete shutdown of WS’ aerial operations
                   pending a preliminary report of the National Transportation Safety
                   Board and development of a plan for outside review of the aerial
                   operations program. The planned review of aerial operations was to
                   focus on five primary areas, including human factor, aircraft, aerial
                   hunting procedures, training for pilots, and contracting. The review
                   team then prepared a report of its findings and recommendations.
                   Based on available funding, WS implemented recommendations set
                   forth by the review team over the following years.

                   WS may buy, borrow, or lease in order to acquire aircraft services. WS
                   also has used cooperative agreements and contracts to provide aerial
                   hunting services. Cooperative agreements transfer things of value in
                   order to carry out a public purpose authorized by law. When the
                   Government and a group find it convenient to share resources for the
                   public good, they may trade things of value to effect that good. Within
                   WS, the authority for entering into cooperative agreements has been
                   delegated to the Regional level.

                   The APHIS Agreements Management Manual generally distinguishes
                   between contracts, grants, and cooperative agreements, but does not set
                   specific policy for WS use of cooperative agreements.              WS
                   commissioned an aviation information firm to evaluate the
USDA/OIG-A/33099-1-KC                                                               Page 1
                   cost-effectiveness of various types of arrangements under which WS
                   operates aircraft (e.g., lease, purchase, etc.). The 1999 internal study
                   concluded, among other things, that it was most cost effective for WS
                   to lease the planes used for aerial hunting.
                   Whichever means it uses to acquire services, WS must obligate funds
                   in order to pay for the equipment and/or services it procures. The U.S.
                   Code (U.S.C.) below specifies requirements for Federal obligations.

                   Subsection (a)(1) of 31 U.S.C. 1501 requires that all obligations for
                   contracts have a binding agreement and that the binding agreement be
                   executed before the end of the fiscal year. The agreement must be in
                   writing and executed before the end of the period of availability for
                   obligation for specific goods to be delivered, real property to be bought
                   or leased, or work or service to be provided. As expressed by the
                   Comptroller General, a “contract imposing [an] obligation must be
                   made within the fiscal year sought to be charged and must meet a bona
                   fide need of that fiscal year.”

                   31 U.S.C. Section 1502(a) also provides that an appropriation is
                   available only for payment of expenses properly incurred during the
                   period of availability or to complete contracts properly made.

                   WS must enter into a binding agreement with the entity from which it
                   buys, borrows, or leases during the same fiscal year that funds are
                   obligated to pay for the services. Without a binding agreement, WS
                   has no bona fide need for the services and, thus, cannot obligate funds
                   to pay for them.

Objectives         In September 2002, the Office of Inspector General (OIG) received a
                   congressional inquiry requesting an evaluation of alleged improprieties
                   in the leasing of airplanes by APHIS WS and potentially inappropriate
                   financial arrangements between WS and an industry group. In
                   October 2002, we initiated a review to (1) examine potential violations
                   of appropriations and procurement laws and (2) evaluate the control
                   structure APHIS WS had in place to guide its acquisition of aircraft
                   services. During the course of our audit, it came to our attention that
                   Freedom of Information Act (FOIA) provisions may have been violated
                   as part of WS’ dealing with a complainant. Accordingly, we assessed
                   these potential violations.




USDA/OIG-A/33099-1-KC                                                                Page 2
Findings and Recommendations
Section 1. Violations of Law

                             WS acted inappropriately in facilitating an industry group’s purchase of
                             an airplane. Lacking a binding agreement that established a bona fide
                             need to obligate Federal funds, the payments may have violated Federal
                             appropriations laws. In addition, WS used purchase cards to pay for
                             costs in order to keep the payment approval at the Regional level.
                             Because the costs exceeded the $2,500 limit of any one purchase card,
                             the WS Region split the charges among five purchase cards, thereby
                             violating procurement regulations. We concluded the questionable
                             actions by the WS were made to facilitate the purchase of an aircraft by
                             a future cooperator5 (industry group).

Finding 1                    WS’ Payments for Aircraft Repairs May Have Violated
                             Appropriations Law

                             WS executed an improper financial arrangement with an aircraft repair
                             company (company) to facilitate the purchase of an aircraft by a future
                             cooperator for use in its wildlife predation program. WS allowed the
                             company to bill for repairs that had already been made, totaling over
                             $25,000, and provided an engine valued at about $20,000 when it did
                             not have a binding agreement with the company. The responsible WS
                             official believed the ex post facto expense was appropriate because it
                             was linked to an intended cooperative arrangement with an industry
                             group with whom WS shared mutual interests related to the protection
                             of livestock. WS officials also believed that actions they took in
                             payment of funds that assisted the industry group in acquiring an
                             airplane to replace the complainant’s aircraft were justified due to
                             structural and safety concerns regarding the complainant’s aircraft.
                             Because WS did not authorize the expenditures at the time the repairs
                             occurred and because there was no binding agreement with the
                             company or the industry group, we question whether WS properly
                             exercised its discretion in obligating and expending Federal funds.

                             Subsection (a)(1) of 31 U.S.C. 1501 requires that all obligations for
                             contracts have a binding agreement and that the binding agreement be
                             executed before the end of the fiscal year. The agreement must be in
                             writing and executed before the end of the period of availability for
                             obligation for specific goods to be delivered, real property to be bought
                             or leased, or work or service to be provided. As expressed by the
                             Comptroller General, a “contract imposing [an] obligation must be

5
  The industry group subsequently entered into a cooperative agreement with APHIS to provide the services of the
aircraft for use in APHIS’ aerial hunting programs.
USDA/OIG-A/33099-1-KC                                                                                   Page 3
                           made within the fiscal year sought to be charged and must meet a bona
                           fide need of that fiscal year.”

                           31 U.S.C. Section 1502(a) also provides that an appropriation is
                           available only for payment of expenses properly incurred during the
                           period of availability or to complete contracts properly made.

                           When WS contracts for an aircraft for its aerial hunting program, it
                           requires the supplier to have made all the modifications needed to
                           render the aircraft suitable for the specialized purposes to which the
                           agency will put it. The supplier can recover the cost of the
                           modifications by including them in the rate it charges WS for the use of
                           the aircraft.

                           In February and March 1999 (fiscal year 1999), an aircraft repair
                           company made modifications to a Piper Super Cub that brought the
                           plane up to the required standards for the WS wildlife predation
                           program. WS leased the plane from the company in June 1999 and
                           paid the company $6,511, for use of the plane for July and
                           August 1999. Beginning in August 2000 (fiscal year 2000), however,
                           WS began issuing payments to the company to cover the cost of
                           modifications made in the prior fiscal year.

                           By December 2000, WS had made over $25,000 in payments to
                           invoices submitted by the company based on a July 2000 understanding
                           by the industry group that WS would contribute about $30,000 in the
                           form of a loan or grant and an engine (for a total of about $50,000 in
                           money and equipment) toward the purchase of the aircraft by the
                           industry group. A buy/sell agreement from the company, dated
                           4 months earlier (August 1), showed that the sale was contingent on
                           WS’ compensating the aircraft repair company for $15,050, furnishing
                           an engine, or compensating the repair company for a complete
                           180-horsepower conversion of the engine.

                           No Binding Agreement

                           WS had no written agreement with the aircraft company in
                           February 1999 to obligate Federal funds to pay for the cost of
                           modifications made to the Piper Super Cub to ready it for use in WS’
                           wildlife predation program. The company made the modifications in
                           the anticipation of leasing the plane to the Government. When WS
                           leased the plane from the company in June 1999, it issued a Blanket
                           Purchase Agreement (BPA)6 to authorize and pay for services rendered.

6
 According to the APHIS Purchasing Handbook, dated May 2002, a BPA is not a contract. The Government is not
obligated to place any orders and the vendor is not obligated to accept any orders.
USDA/OIG-A/33099-1-KC                                                                              Page 4
                             This BPA included no commitment on WS’ part to pay for any extra
                             charges beyond the lease rate. The BPA shows that the plane would be
                             leased for $65 per hour, as needed. Additional WS records show that
                             payments were made to the company on July 31, 1999, for leased
                             aircraft for $4,457 and on August 31, 1999, for $2,054.

                             During the summer of 2000, the aircraft repair company negotiated the
                             sale of the Piper Cub to the industry group. On August 1, 2000, the
                             company drew up a buy/sell agreement which specified that the sale of
                             the plane was contingent on WS paying $15,050 for installed
                             equipment and modifications to bring the aircraft into compliance with
                             WS requirements for aerial hunting planes. The buy/sell agreement did
                             not include WS as a signatory to recognize and obligate WS to pay for
                             the modifications.

                             On August 9, 2000, the seller forwarded an invoice for $15,050 to a
                             WS official. On August 28, 2000, this official forwarded the invoice to
                             Marketing and Regulatory Programs Business Services (MRPBS),
                             which handles financial transactions for the WS. He included a
                             memorandum explaining that, due to short timeframes and the need to
                             initiate aircraft modifications, a request for a purchase order was
                             previously overlooked.7       The memorandum apologized for the
                             oversight and requested payment. MRPBS approved the request and
                             forwarded the invoice for payment. One day later, a purchase order
                             and check for payment were both issued by MRPBS for $15,050.

                             No Bona fide Need

                             By issuing payments in August 2000 (fiscal year 2000) for aircraft
                             modifications that were made in February and March 1999 (fiscal year
                             1999) without a written agreement, WS demonstrated that there was no
                             bona fide need to pay for those modifications when it did. According
                             to 31 U.S.C. 1502 (a), known as the “bona fide needs” statute:

                             The balance of an appropriation or fund limited for obligation to a
                             definite period is available only for payment of expenses properly
                             incurred during the period of availability or to complete contracts
                             properly made within that period of availability and obligated
                             consistent with section 1501 of this title [which requires the binding
                             agreement noted above]. However, the appropriation or fund is not
                             available for expenditure for a period beyond the period otherwise
                             authorized by law.


7
 Advance requests for purchase orders are the official request for MRPBS to initiate the procurement process and
obligate funds.
USDA/OIG-A/33099-1-KC                                                                                   Page 5
                            Since funding was not obligated in February 1999 by any binding
                            agreement, the expenses paid in August 2000 represented an
                            unauthorized commitment and a possible violation of appropriations
                            law, as set forth in 31 U.S.C. 1502. We concluded that under the
                            circumstances, MRPBS should not have agreed to, and paid for, the
                            expenditure request.

                            We also found nothing to demonstrate that WS needed to acquire an
                            additional (fourth) aircraft for use in Wyoming in fiscal year 1999.8 In
                            fact, to implement the cooperative agreement with the industry group,
                            WS notified an aircraft supplier (complainant) in August 2000 that it
                            was not going to exercise an option on a Piper Super Cub for fiscal year
                            2001 (October 2000 through September 2001). The plane was under
                            contract as of November 1999, for fiscal year 2000 (October 1999
                            through September 2000). Although WS officials expressed concerns
                            over the structural integrity of the aircraft under the contract, they
                            continued flying the plane under a modification to the contract until
                            December 2000 when the industry group’s Piper Super Cub was
                            brought into the program by the signing of the cooperative agreement
                            on November 20, 2000.

                            Additional invoices totaling $10,157.92 were billed by the aircraft
                            repair company on November 2, 2000, (fiscal year 2001) for
                            modifications made in October 2000. These invoices were paid in
                            December 2000. For details about these payments, see finding 2.

                            WS’ combined contributions to the modifications to the Piper Super
                            Cub totaled $25,207.92 in monies and approximately $20,000 in
                            equipment (an engine). These contributions well exceeded the $34,450
                            contributed by the industry group to purchase the aircraft. We question
                            this transaction as an apparent means of facilitating the industry
                            group’s purchase of the aircraft.

                            Ownership

                            We also question WS’ actions insofar as they did not provide an
                            ownership interest in the aircraft. WS officials maintain that the
                            agency owns the engine and, therefore, the contribution should not be
                            counted towards monetary interest in the aircraft. We note, however,
                            that had WS not contributed the engine, the industry group would have
                            had to pay at least $33,450 more (per the seller’s correspondence) to
                            bring the aircraft up to required standards. At a minimum, WS’
                            equipment and monetary contribution allowed the group to pay about

8
  WS began discussing that a fourth plane could be used in Wyoming in 2002 during the same timeframe that the
industry group acquired a second airplane.
USDA/OIG-A/33099-1-KC                                                                                Page 6
                              half as much as they would have if they had to provide the engine on
                              their own.9

                              WS personnel originally stated that, as with the engine, paying for the
                              aircraft modifications constituted the agency’s ownership of the
                              modified aircraft parts, with associated rights to remove such parts
                              should the aircraft be sold or removed from service. A representative
                              of the industry group, however, stated that, with the exception of the
                              engine, there were no provisions or understanding that WS maintained
                              ownership and the right to remove other parts of the aircraft.

                              In addition, WS did not treat the equipment as if it were part of its
                              inventory. The modified aircraft parts, excepting the engine, were not
                              recorded or tracked as accountable property. Because there was no
                              binding agreement for the modifications and because the cooperative
                              agreement recognizes only the group’s ownership of the aircraft, WS
                              may not be able to recover any of its investment. Since fiscal year
                              2003, the industry group now supplies aircraft under contract (lease)
                              with WS.

                              WS personnel subsequently argued that funding provided for aircraft
                              modifications was indirectly recovered through retained lower lease
                              rates and increased flight hours associated with the cooperative
                              agreement. We question this assertion because the hourly rate for
                              aircraft use from the industry group is renegotiated from year to year.
                              WS held no guarantee that the group would continue to charge them a
                              low hourly rate. In any case, WS did not analyze the lease rate to
                              determine whether the amount it would save during the course of the
                              lease would equal or exceed the amount of money and equipment it had
                              contributed to the aircraft’s purchase.

                              The Piper Super Cub supplied by the aircraft repair company under the
                              BPA was leased for $65 per hour; the aircraft supplied under the
                              contract by the complainant was $88 per hour for the 335 minimum
                              guaranteed hours and $20.50 for any additional hours in the first year.
                              The complainant’s aircraft would subsequently lease for $77.25 per
                              hour for 400 minimum guaranteed hours and $20.50 for any additional
                              hours in the second and third years. The industry group’s hourly lease
                              rate was $55.00 per hour for 500 estimated hours.




9
  The group paid $34,450, the engine was worth approximately $20,000, and APHIS contributed over $25,000, for a
total of $79,500. The group’s contribution represents 43 percent of this total, leaving WS’ contributions valued at
57 percent.
USDA/OIG-A/33099-1-KC                                                                                      Page 7
                   Anticipated Lease Payments to Contractor Compared to Industry Group

                   We further question the APHIS contention that a cooperative
                   agreement with the industry group allowed the agency to indirectly
                   recover the costs of aircraft modifications through the agency’s ability
                   to secure additional flying hours based on a lower hourly lease rate.
                   For fiscal year 2002, the guaranteed lease payment to the contractor
                   (the complainant) was $30,900, based on 400 hours at $77.25 per hour.
                   Assuming an additional 100 hours of flying time (to equal the number
                   of hours estimated for operation by the industry group) at $20.50 per
                   hour, the lease payments to the contractor would have totaled $32,950.
                   The estimated lease payment to the industry group was $27,500, based
                   on 500 hours of flying time at $55 per hour. The difference of $5,450
                   ($32,950 less $27,500) would be insufficient to recover the APHIS
                   payments totaling $25,207.92 during the first year. In fact, it would
                   have taken nearly 5 years to fully recoup the APHIS payments if the
                   aircraft was supplied at $55.00 an hour based on 500 hours as estimated
                   on the FY 2001 work plan developed for the industry group. Based on
                   672.8 hours actually flown during this timeframe, APHIS would have
                   paid the contractor less ($36,492) than they paid the industry group
                   ($37,004).

                   It should also be noted that upon submitting a competitive bid for the
                   fiscal year 2003 contract, the industry group increased its lease rate to
                   $70 per hour for 450 guaranteed hours and $30 per hour for each
                   additional hour. Proposed lease rates by the industry group for optional
                   years of the contract were set to increase $2.50 per hour for each
                   subsequent year, reaching $80 per hour for 450 guaranteed hours and
                   $40 per hour for each additional hour effective for fiscal year 2007.
                   Therefore, it appears little, if any, benefit actually accrued to WS
                   through the industry group’s cooperative arrangement.

                   We concluded that WS should seek a legal opinion from the Office of
                   the General Counsel (OGC) as to whether the agency’s contributions to
                   the purchase price for the fixed-wing aircraft, paid without a binding
                   agreement or a bona fide need, constitute a violation of appropriations
                   law. WS also should consider appropriate disciplinary actions against
                   all personnel involved in this transaction.

Recommendation No. 1

                   Request a written legal opinion from the OGC as to whether financial
                   and equipment contributions, exceeding 50 percent of the purchase
                   price for the fixed-wing aircraft and paid without a binding agreement
                   or a bona fide need, constitute a violation of appropriations law.

USDA/OIG-A/33099-1-KC                                                                Page 8
                   APHIS Response.

                   APHIS disagreed that the WS contribution to the industry group
                   aircraft exceeded fifty percent of the purchase price as the engine
                   remains WS property. APHIS also disagreed that no bona fide need
                   existed. Nonetheless, APHIS stated that WS will request a legal
                   opinion from OGC on whether financial and equipment contributions
                   constituted a violation of appropriations law. The request for legal
                   opinion was to be initiated by August 31, 2004.

                   OIG Position.

                   OIG does not question the need for WS to operate an aircraft in the
                   designated geographical location.     Rather, OIG questions whether
                   Federal funds were obligated for payment of expenses properly
                   incurred or for contracts properly made within the period of
                   appropriation availability; whether a bona fide need existed for the
                   services in that fiscal year.

                   We accept the management decision that WS will request a legal
                   opinion by August 31, 2004, from OGC as to whether financial and
                   equipment contributions constitute a violation of appropriations law.

Recommendation No. 2

                   If it is determined that WS personnel violated appropriations law,
                   initiate appropriate disciplinary actions.

                   APHIS Response.

                   APHIS responded that if it is determined WS personnel violated
                   appropriations law, the WS Deputy Administrator will initiate
                   appropriate disciplinary action.

                   OIG Position.

                   While the APHIS response indicates positive corrective action, we are
                   unable to accept management decision until disciplinary action
                   specifics are known and an actual or estimated timeframe for
                   completion of the agreed to action is provided to us.




USDA/OIG-A/33099-1-KC                                                            Page 9
Recommendation No. 3

                               Consult with the OGC as to the actions WS can and should take to
                               rectify this questionable transaction, including ownership of the plane,
                               recovering the APHIS funds, and protecting the Government’s interest.

                               APHIS Response.

                               APHIS responded that WS will consult with appropriate USDA and
                               APHIS officials by September 30, 2004.

                               OIG Position.

                               The APHIS response provides for WS consultation with USDA and
                               APHIS officials, but does not specify whether representatives of OGC
                               will be included. We are unable to accept the management decision
                               without clarification being provided to us that WS will consult with
                               OGC regarding appropriate actions that can and should be taken with
                               respect to the WS contributions of funding and equipment relative to
                               the aircraft purchase transaction.

Finding 2                      WS Violated Procurement Regulations by Splitting Invoice
                               Amounts Into Five Separate Payments to be Paid by
                               Purchase Cards

                               WS covered the cost of two invoices totaling over $10,000 by splitting
                               the amount into five invoices of less than $2,500 each and using a
                               purchase card to pay each invoice. WS resorted to this expedient
                               because the $10,000 costs resulted from an unauthorized commitment
                               made in the previous fiscal year to pay for aircraft modifications (see
                               finding 1). As a result, the holders of the WS purchase cards violated
                               procurement regulations that forbid splitting invoices in order to allow
                               purchase card payments that exceed $2,500.

                               The USDA Purchase Card Management System (PCMS)
                               Micro-Purchase Guide establishes a $2,500 maximum dollar amount
                               that may be delegated to a cardholder for a single purchase.
                               Convenience checks are used for purchases when the vendor or
                               merchant is not willing or able to accept the purchase card. The PCMS
                               Micro-Purchase Guide expressly forbids splitting purchases merely to
                               stay within the single purchase limit.10 The Federal Acquisition
                               Regulation (FAR) states that the micro-purchase threshold shall not be
                               broken down into several purchases that are less than the applicable

10
     PCMS/Micro-Purchase Guide, Single Purchase Limit, p. II-2.
USDA/OIG-A/33099-1-KC                                                                          Page 10
                           threshold merely to permit use of simplified acquisition procedures or
                           to avoid any requirements that apply to purchases exceeding the
                           micro-purchase threshold.11

                           On November 2, 2000, the aircraft repair company submitted an
                           invoice to the WS for $7,662.92 in additional aircraft modifications.
                           As no advance request for a purchase order was submitted to MRPBS,
                           this invoice represented an unauthorized commitment subject to
                           ratification per regulation. Documentation shows that the aircraft
                           repair company certified these items were completed in October 2000.

                           Since the invoice represented alleged commitments from the previous
                           fiscal year (2000), a WS officer indicated that WS could not pay the
                           invoice using that fiscal year’s (2001) funds. The officer suggested
                           splitting the invoice into separate invoices so that payment could be
                           made using purchase cards. Below a $2,500 threshold, purchase cards
                           allow payments to be made without prior authorization through
                           advance purchase channels. Given the relatively small amount of a
                           sub-threshold purchase, these individual purchases are not subject to
                           the same level of control as purchases above the threshold.

                           The invoice was subsequently split into four separate invoices, with a
                           fifth invoice for $2,495 in labor being added. At request of the WS
                           officer, five different WS personnel, who were not involved in the
                           original acquisition, issued convenience checks through their purchase
                           cards in payment of the five invoices, together totaling over $10,000.

                           By splitting the purchase amount to stay within the single purchase
                           limit, WS personnel circumvented controls designed to ensure that the
                           agency’s funding is obligated appropriately.

Recommendation No. 4

                           Initiate disciplinary actions based on employees’ roles and
                           responsibilities related to unauthorized funding ratification and
                           consider revocation of purchase card authorizations of all employees
                           who directed the orders be split and those who made the payments.

                           APHIS Response.

                           APHIS provided details of implemented controls designed to
                           strengthen the integrity of the procurement process, including personnel
                           changes to allow for more checks and balances within financial and
                           procurement processing operations, scheduled reviews of credit card

11
     FAR Part 13.103(c).
USDA/OIG-A/33099-1-KC                                                                      Page 11
                   transactions at the WS State and Regional office levels, and required
                   training for WS State office personnel related to Federal Appropriations
                   Law and APHIS Agreements. APHIS further responded that by
                   August 31, 2004, the WS Deputy Administrator would request a
                   MRPBS audit of employees’ roles and responsibilities with regard to
                   aerial-related credit card transactions and accountability. Based on
                   MRPBS recommendations, the WS National office will implement
                   necessary and appropriate actions.

                   OIG Position.

                   While APHIS has instituted a wide range of controls to provide better
                   accountability over the procurement process, management decision
                   cannot be accepted until further clarification is provided to us on the
                   MRPBS audit. To reach management decision, we need to know
                   whether this review will include an evaluation of the specific actions of
                   WS employees with respect to improper requests for ratification of
                   unauthorized procurement actions and improper payments for split
                   invoices identified in the audit report. APHIS’ internal review should
                   not simply focus on the processes/procedures currently in place.
                   APHIS must clarify whether implementation of necessary and
                   appropriate actions will include a determination as to whether
                   personnel actions will be taken, as deemed appropriate.




USDA/OIG-A/33099-1-KC                                                              Page 12
Section 2. Management Controls Over WS Aerial Acquisition Program are
Lacking

                    WS lacks a cohesive management control structure to ensure that its
                    aircraft resources are acquired appropriately. In particular, WS has not
                    developed written policies governing the acquisition of aircraft and
                    does not provide management oversight of aircraft acquisition. WS
                    senior management has delegated full authority and responsibility for
                    aircraft procurement to the Regional level with only general APHIS
                    acquisition policy to guide particular WS aircraft procurements.
                    Without established procedures that demonstrate how to apply general
                    APHIS acquisition policy to specific WS procurement situations, WS
                    Regional personnel are left to implement APHIS guidelines as they see
                    fit.

Finding 3           WS Management Did Not Provide an Adequate Control
                    Structure

                    WS did not provide an adequate control structure to ensure that aircraft
                    acquisitions made to combat livestock predation were carried out by the
                    Regions in a manner that maintained the integrity of the program.
                    Specifically, WS senior managers, who had delegated acquisition
                    authority to the WS Regions, provided no oversight to ensure the
                    authority was used appropriately and issued no WS-specific policies or
                    procedures that governed aircraft acquisitions. As a result, APHIS
                    obtained aircraft in a manner so questionable that the acquisition itself
                    circumvented procurement regulations, and may have violated
                    appropriations law.

                    WS records showed that in fiscal year 2002, WS leased and operated
                    10 aircraft for a total of $262,472 in variable lease commercial costs.
                    WS also obtains aircraft for the program through surplus, purchase, and
                    borrowing. The total WS cost in fiscal year 2002 for aircraft operated
                    by WS personnel approached $1.8 million. In addition, WS records
                    showed that the agency paid $420,486 for 32 contracted aircraft (not
                    operated by WS).

                    These figures show the expenditure of significant resources by WS to
                    provide aircraft services within its aviation program and indicate the
                    need for a cohesive management control structure and management
                    oversight. However, we found that WS did not have written policies
                    regarding the acquisition of aircraft and did not provide management
                    oversight of those acquisitions.



USDA/OIG-A/33099-1-KC                                                               Page 13
                  Lack of Management Oversight

                  By authorizing the payment of funds to an aircraft repair company for
                  modifications to an airplane that would be sold to an industry group and
                  made available to WS through a cooperative agreement, WS may have
                  violated provisions of the Federal appropriations law. Specifically, the
                  WS payments were made about 1 year after the modifications had been
                  completed, WS was essentially reimbursing the aircraft seller for
                  modifications that were made in the absence of any binding agreement
                  on WS’ part that it would fund the modification (see findings 1 and 2).

                  WS’ investment in an aircraft that would be purchased by the industry
                  group for future lease to WS, its failure to document any ownership in
                  the plane, either through the cooperative agreement or any other
                  procurement instrument, and its determination to supplant a
                  procurement contract with a cooperative agreement, raises questions
                  about the Region’s unrestrained exercise of the delegated authority. We
                  concluded that WS senior managers need to be more closely involved in
                  the aerial acquisition program and in the decision-making process.

                  Written Policies

                  The one guide that the WS issues concerning aircraft, the Aviation
                  Operations Manual, prescribes the minimum safety standards for
                  aircraft use. It does not provide any guidance on the acquisition of
                  aircraft. For this guidance, WS personnel turn to the APHIS
                  Agreements Management Manual, which sets forth policy on the
                  acquisition of assets by all procurement officers managing programs in
                  six APHIS divisions, including those in the WS. WS itself has not
                  produced any written policy of its own for those specific assets, like
                  aircraft, that it acquires routinely over the years.

                  APHIS manual policy is necessarily general and reflects, as nearly as it
                  can, the language of 31 U.S.C. 6301-6308 that distinguishes between
                  contracts, grants, and cooperative agreements. However, the manual
                  was meant to apply to all APHIS programs and is worded broadly rather
                  than narrowly. For example, the manual specifies that a contract is the
                  proper instrument of acquisition when APHIS is going to get a
                  “deliverable,” such as “equipment or supplies for APHIS’ use.”
                  Conversely, the manual also provides among its examples of situations
                  calling for cooperative agreements those “wildlife damage activities
                  where APHIS wants to participate in the project.” The manual does not
                  make clear that the delivery of an airplane for wildlife damage activities
                  would warrant a contract or that WS’ engagement in aerial hunting in a
                  third party’s plane would not rise to the level of a cooperative
                  agreement.
USDA/OIG-A/33099-1-KC                                                              Page 14
                  There are no WS-specific procedures for acquiring aircraft for wildlife
                  damage control; WS Regions have been delegated the authority for
                  acquiring aircraft. We concluded that WS should issue written policy
                  and procedures regarding the acquisition of aircraft. Such policy should
                  address the decision points that result in selection of the proper
                  instrument (contract or agreement) to acquire aircraft and prevent the
                  kinds of arrangements Regional personnel made with the industry
                  group. Specifically:

                        1) WS should not pay for modifications to an aircraft without
                           having a binding agreement in place. The party that sold the
                           aircraft to the industry group made modifications to the plane
                           beginning in February 1999, months before the WS began
                           paying for the modifications in the absence of a written
                           commitment and over a year before the cooperative agreement
                           with the industry group was signed.

                        2) As a general rule, WS should not use an agreement when
                           procurements are justified. Public law and the APHIS manual
                           make clear that competitive contracts are the preferred
                           instrument for acquisitions and that agreements should not be
                           entered into if they are in direct competition with commercial
                           vendors. To initiate cooperative agreements to acquire aircraft,
                           the WS Region abandoned a contract method of procurement it
                           had been using for at least 3 years in Wyoming and patterned
                           this effort after a cooperative agreement used in Idaho.

                        3) WS should ensure competition for agreements to the maximum
                           extent practicable. The APHIS manual makes this clear and
                           requires justification for agreements entered into without
                           competition. The WS Region offered no acceptable justification
                           for entering into the noncompetitive agreement with the industry
                           group.

                  WS policy should also offer guidance on preparing a cooperative
                  agreement to ensure the instruments meet the appropriate criteria.
                  Specifically:

                        1) Cooperative agreements need to acknowledge WS’ ownership of
                           any assets WS contributes, giving WS the option of recovering
                           these assets when the agreement terminates. The cooperative
                           agreement with the industry group makes no reference to the WS
                           funds used to pay for the plane’s modifications and the engine.
                           Although WS personnel stated the Government owned part of

USDA/OIG-A/33099-1-KC                                                              Page 15
                           the plane, the industry group would not acknowledge any
                           Government ownership outside of the engine.

                        2) Cooperative agreements need to specify the activities the
                           cooperator will engage in as its part of the participation. The
                           cooperative agreement with the industry group shows that the
                           group was not participating in the aerial hunting, only making
                           the aircraft available.

Recommendation No. 5

                   Develop a cohesive management control structure for aircraft to include
                   management decision processes and models to properly evaluate
                   ownership/operating options, and terminate all inappropriate
                   cooperative agreements used to obtain aircraft.

                   APHIS Response.

                   APHIS responded that MRPBS hired a full-time warranted Contracting
                   Officer in April 2003, to oversee all procurement activities for the
                   aviation program. The Contracting Officer will provide guidance to the
                   National Aviation Manager and oversight of all procurement activities
                   for the aerial program to ensure compliance with procurement
                   regulations. In addition, WS will monitor cooperative agreements and
                   contracts for aerial activities at the National level beginning
                   October 1, 2004.

                   OIG Position.

                   We cannot accept management decision until APHIS fully describes its
                   management control structure for aircraft management decision
                   processes and its guidance regarding ownership/operating options to be
                   approved by the WS National office. In addition, APHIS’ response did
                   not address the termination of all inappropriate cooperative agreements
                   used to obtain aircraft. To reach management decision, APHIS needs
                   to provide a description of its controls and guidance, as well as what
                   actions will be taken, with timeframes, to review the propriety of its
                   agreement and contracts for aircraft acquisition.

Recommendation No. 6

                   Require the WS to develop and issue acquisition guidelines that are
                   based on the decision processes and models described in
                   Recommendation No. 5 and that set forth in terms specific to the WS
                   mission and its programs the requirements entailed in acquiring aircraft
                   and other high-value assets through the procurement process. These
USDA/OIG-A/33099-1-KC                                                              Page 16
                   guidelines should be in harmony with the appropriate Federal
                   procurement regulations and the APHIS manual, and should be in
                   sufficient detail to clarify the decision process in situations peculiar to
                   the WS.

                   APHIS Response.

                   APHIS responded that WS believes FAR subpart 7.4 contains sufficient
                   acquisition procedures and sees no need for additional informal
                   guidelines. WS will move management responsibility for these
                   acquisition activities to the National office, while continuing to analyze
                   each individual need for aircraft and matching the appropriate tool to
                   the need for successful accomplishment of the mission.

                   OIG Position.

                   We agree that the WS should follow provisions of the FAR as these
                   regulations set forth policy and procedure for the procurement of goods
                   and services via purchase or lease throughout the Government.
                   However, the FAR does not address or provide specific agency controls
                   and operational procedures to ensure that appropriate regulatory
                   authorities are followed. To reach management decision, WS needs to
                   provide a description of the controls and procedures that will be
                   established to ensure compliance with established policy and regulatory
                   authorities, as well as the target date for implementation.

Finding 4          WS Senior Management Did Not Ensure That Acquisition
                   Decisions Complied With Internal Study Results

                   In its decisions about acquiring aircraft, WS inconsistently applied its
                   own internal evaluation of the most cost-effective means to procure
                   services. WS’ decision making wavered because senior management
                   did not ensure that the results of the evaluation were used consistently
                   to make acquisition decisions. As a result, in one instance, WS’
                   personnel used the study to justify leasing aircraft for its aerial hunting
                   program, while in another instance the study’s recommendation that
                   aircraft be leased rather than purchased was ignored.                  This
                   inconsistency further showed that WS was determined to secure the
                   services of an industry group’s airplanes, as each decision appeared to
                   work to the advantage of the group’s attempt to provide aircraft
                   services for aerial hunting.

                   An aviation information firm performed an Aviation Services Study to
                   evaluate the cost effectiveness of various types of arrangements under
                   which WS operates aircraft (e.g., lease, purchase, etc.). The 1999 study

USDA/OIG-A/33099-1-KC                                                                Page 17
                             concluded, among other things, that it was most cost effective for WS
                             to lease the planes used for aerial hunting.

                             WS personnel originally referred to the internal study as support for
                             their decision to execute a cooperative agreement with the industry
                             group. After the agreement was terminated, following a suit filed by a
                             complainant, WS opened the lease to competitive bidding. The
                             industry group submitted the winning bid and continued to provide its
                             plane to WS, although under a lease rather than a cooperative
                             agreement.

                             While under this lease arrangement, the group acquired a second plane
                             (using the first as collateral).        Subsequently, WS published
                             pre-solicitation notices notifying vendors of its intent to purchase three
                             planes suited for aerial hunting. Two of the planes WS proposed to
                             purchase were similar to those analyzed in the internal study, but no
                             explanation was given for why the agency chose to ignore the internal
                             study (which recommended leasing).12

                             The advertisements also showed that two of the planes were identical to
                             those owned by the industry group (one under lease with WS and one
                             just purchased). The aggregate effect of WS’ acquisition strategies
                             gives the appearance that the agency intended to acquire the services of
                             aircraft owned only by the group. When one means failed, the
                             cooperative agreement, WS appears to have employed other
                             instruments (lease, purchase) to enhance the likelihood that the group
                             continued to provide the agency with aircraft.

                             This impression is strengthened by WS’ having published the
                             pre-solicitation notices in the incorrect part of the Federal Business
                             Opportunities for Vendors—section 99 rather than section 15. The
                             Federal Business Opportunities for Vendors includes section
                             15, Aircraft and Airframe Structural Components, and section
                             99, Miscellaneous.13       Incorrect placement and publication of
                             pre-solicitation notices limit vendor access to information for potential
                             bids since they may not see the notices, thus narrowing the field of
                             potential offers and potentially weakening the competitive bidding
                             process.

                             The study WS commissioned to determine the most cost-effective
                             options for acquiring aircraft should have guided decision making.
                             However, WS lacked management controls to ensure that the internal

12
   The third plane was a new model of a previously used aircraft that WS wanted to test and evaluate for use in
providing aerial hunting services.
13
   Federal Supply Codes/Product Service Codes, sections 15 and 99.
USDA/OIG-A/33099-1-KC                                                                                Page 18
                   study’s recommendations were applied consistently in its aircraft
                   acquisition decisions for its aerial hunting program. This inconsistency
                   opened WS’ acquisition decisions to question and evoked the
                   appearance of favoritism.

Recommendation No. 7

                   Require that the WS senior management ensure aircraft acquisition
                   decisions are consistent with its internal study results and in the best
                   interests of the Government.

                   APHIS Response.

                   APHIS discounted the internal study as an effective management tool,
                   citing flaws in the information and approach used by the contracted
                   aviation firm. APHIS stated that WS acquisition decisions are made to
                   accomplish the program mission, and as such, WS will follow the FAR,
                   subpart 7.4 and any other appropriate information to determine if a
                   lease or buy is the best option for the mission.

                   OIG Position.

                   APHIS officials cited the internal study during this audit as criteria for
                   establishing consistency in the decision process for the lease or
                   purchase of aircraft. In addition, the study results were initially
                   identified by WS Western Region management as support for their
                   decision to execute a cooperative agreement with the industry group to
                   lease the subject aircraft. The WS Western Region management
                   identified the internal study as fulfilling the requirements for periodic
                   review under Office of Management and Budget Circular A-76; an
                   assertion later disputed by WS Headquarters personnel. Our audit
                   reported that WS personnel originally used the internal study as support
                   for their position to lease aircraft, while subsequently adopting a
                   philosophy that purchasing was a preferred procurement option; a
                   position contrary to the results of the internal study.

                   A contracted study is generally designed around parameters and
                   specifications provided by the agency. If the study was flawed, as now
                   asserted by APHIS officials, it raises questions as to why the study was
                   offered as support for any aircraft acquisition decision, including the
                   decision to use a cooperative agreement to lease the aircraft.

                   To reach management decision, APHIS must clarify what process will
                   be used to determine if a lease or buy option best fulfills the mission.



USDA/OIG-A/33099-1-KC                                                               Page 19
Recommendation No. 8

                   Develop controls to ensure that pre-solicitation notices to purchase
                   aircraft appear in section 15 of the Federal Business Opportunities for
                   Vendors.

                   APHIS Response.

                   APHIS responded that MRPBS hired a Contracting Officer in
                   April 2003, who will ensure that all pre-solicitation notices appear
                   within the correct classification code of the Federal Business
                   Opportunities for Vendors.

                   OIG Position.

                   We accept the management decision.




USDA/OIG-A/33099-1-KC                                                             Page 20
Section 3. Freedom of Information Act

Finding 5                     APHIS WS Policies and Procedures for Processing of FOIA
                              Requests Were Not Always Followed

                              Management procedures for processing FOIA requests for records were
                              not always followed to assure proper processing and release of records.
                              Although controls were in place, a Regional official decided that
                              documentation requested by the complainant did not come under
                              FOIA’s provisions. After two requests for records filed on behalf of
                              the complainant were rescinded, WS personnel provided a copy of at
                              least one record to the complainant without clearing the release through
                              the FOIA Coordinator. The responsible official commented that, in his
                              opinion, the document was not privileged.

                              FOIA provides that each agency, in accordance with published rules,
                              has to make records available for public inspection.14 Departmental
                              regulations require, though, that each agency develop and maintain a
                              record of all written requests and appeals for records received by the
                              agency.15 In addition, APHIS (WS’ parent agency) procedures further
                              require that requests for records have to be made in writing and
                              submitted to APHIS’ FOIA Coordinator.16

                              On August 10, 2001, the complainant’s attorney filed two separate
                              requests with the WS Region for records relating to cooperative
                              agreements between WS and the industry groups providing leased
                              aircraft for aerial hunting.      Documentation maintained by the
                              complainant supported a telephone contact initiated by a WS official to
                              discuss future options for use of the complainant’s fixed-wing aircraft
                              and a request for the complainant to allow WS the opportunity to work
                              the situation out internally. The WS official held that he did not ask the
                              complainant to terminate the FOIA requests for records.

                              Following this call, the complainant said that he told his attorney to
                              rescind the FOIA requests for records. Correspondence from the
                              attorney to the complainant, dated August 16, 2001, indicated that all
                              work on the protest, related to the industry group providing leased
                              aircraft for aerial hunting in Wyoming, was stopped at the
                              complainant’s request.

                              Our interview with the complainant indicated his understanding that
                              future considerations for placement of fixed-wing aircraft would be
14
   5 U.S.C., part 1, chapter 5, subchapter II, section 552(a)(2).
15
   7 Code of Federal Regulations (CFR), part 1, subpart A, section 1.5(h).
16
   7 CFR, chapter III, sections 370.1 and 370.5(a).
USDA/OIG-A/33099-1-KC                                                                          Page 21
                   forthcoming in exchange for termination of the formal FOIA requests
                   for records. The complainant further disclosed that WS personnel
                   subsequently provided a copy of at least one record related to the
                   cooperative arrangement between WS and the industry group. A WS
                   Regional official confirmed that he provided a copy of at least one
                   document to the complainant and explained that the document was not
                   privileged or confidential.

                   While WS has discretionary authority to release information when not
                   specifically prohibited from doing so, the decision to release
                   information should be made in consultation with the APHIS FOIA
                   Coordinator and documented. The release of information by WS
                   personnel may have violated a court injunction filed
                   November 15, 1999, by the United States District Court for the Western
                   District of Texas, Waco Division, limiting the release of information
                   related to entities participating in cooperative arrangements with
                   USDA. Discussions with OGC attorneys disclosed the existence of an
                   ongoing court injunction that, interpreted on a broad basis, restricts the
                   release of information related to USDA cooperating entities to sources
                   outside the USDA.

Recommendation No. 9

                   Counsel WS Regional personnel as to the requirements associated with
                   agency processing of FOIA requests for records.

                   APHIS Response.

                   APHIS responded that on July 7, 2004, the WS National office issued
                   an official reminder to all WS personnel of the requirements associated
                   with agency processing of FOIA requests for records.

                   OIG Position.

                   We accept the management decision.

Recommendation No. 10

                   Consult with the OGC as to whether the actions taken by WS Western
                   Region personnel violated the court injunction limiting distribution or
                   release of information pertaining to cooperating entities and take
                   appropriate administrative action to admonish responsible personnel for
                   any inappropriate actions.




USDA/OIG-A/33099-1-KC                                                               Page 22
                   APHIS Response.

                   APHIS responded that WS would consult with OGC by
                   August 31, 2004, and take appropriate actions by December 1, 2004, to
                   ensure compliance with the court injunction by WS personnel.

                   OIG Position.

                   We cannot accept management decision because the APHIS response is
                   not clear whether intended actions will be directed towards WS
                   personnel associated with the referenced release of records. To reach
                   management decision, WS needs to clarify what actions will be taken if
                   personnel have been found to have violated the court injunction
                   through the specific release of records referenced in the audit report.




USDA/OIG-A/33099-1-KC                                                             Page 23
Scope and Methodology
                   To accomplish the review objectives, we gained an understanding of
                   the aviation program administered by APHIS WS. We reviewed
                   applicable laws, regulations, policies, and procedures developed by
                   APHIS at the headquarters and field level related to WS aerial hunting
                   and procurement operations and activities. We also reviewed Federal
                   procurement regulations and procedures. We conducted our review
                   through interviews of personnel from APHIS WS, MRPBS, OGC, the
                   industry group from which the subject aircraft was leased, the aircraft
                   company responsible for performing aircraft modifications, the
                   complainant, and his attorney. We also reviewed records provided by
                   each respective source to substantiate or refute verbal statements and to
                   establish the sequence of transpired events. We performed the audit
                   fieldwork for the review during the period October 2002 through
                   May 2004.

                   Within WS, we interviewed officials and reviewed records at the
                   Headquarters level in Washington, D.C., the Western Regional Office
                   in Fort Collins, Colorado, and the Wyoming State office in Casper,
                   Wyoming. We obtained background information on the establishment
                   and administration of the aerial hunting program, numbers and types of
                   aircraft operated by WS, arrangements by which WS acquires aircraft
                   for use, and specific details related to the events in question. We
                   analyzed the types of aircraft operated by WS from fiscal years
                   1999 through 2002, and the arrangements under which these aircraft
                   were secured, to identify similarities and differences in operation of
                   aircraft in various States and to evaluate establishment of a normal
                   practice.

                   At MRPBS, we interviewed current and former personnel regarding the
                   processes for solicitation and award of bids for procurement of aircraft
                   services, as well as the procedures for processing payment for invoiced
                   modifications to the aircraft in question. We reviewed records related
                   to the procurement actions associated with these events.

                   Interviews with representatives of the industry group from which the
                   airplane was leased and the company responsible for performing the
                   aircraft modifications were conducted to obtain second-party
                   verification of transpired events and to identify agency personnel
                   involved in the decision-making processes. We interviewed the
                   complainant and one of his attorneys, whose protests served as the
                   basis for the congressional inquiry, and reviewed complainant-provided
                   records to evaluate the legitimacy of the protest allegations.


USDA/OIG-A/33099-1-KC                                                              Page 24
                   The review was performed in accordance with Government Auditing
                   Standards.




USDA/OIG-A/33099-1-KC                                                      Page 25
Exhibit A – Summary of Monetary Results
                                                                         Exhibit A – Page 1 of 1



 Finding   Recommendation
 Number        Number             Description        Amount         Monetary Results
                            Federal funds used to
   1             3          facilitate purchase of   $25,208   Questionable Costs/Loans,
                            an aircraft by a                   Recovery Recommended
                            industry group.




USDA/OIG-A/33099-1-KC                                                                 Page 26
Exhibit B – APHIS Response
                             Exhibit B – Page 1 of 11




USDA/OIG-A/33099-1-KC                      Page 27
Executive Summary
Animal and Health Inspection Service, Wildlife Services Aircraft Acquisition
(Audit Report No. 33099-1-KC)

OIG Recommendations in Brief

The OIG recommends that APHIS request a written legal opinion from the Office of the General
Counsel (OGC) as to whether financial and equipment contributions, exceeding 50 percent of the
purchase price for the fixed-wing aircraft, and paid without a binding agreement or a bona fide
need, constitute a violation of appropriations law.
If a violation has occurred, determine whether disciplinary action is appropriate.

The OIG also recommends that APHIS develop policies and procedures specific to WS’ aerial
acquisition program, including the establishment of management controls to ensure compliance.

In addition, the OIG recommends that WS consult with OGC regarding whether WS personnel
violated the court injunction limiting distribution or release of information pertaining to
cooperative entities.

APHIS Response: APHIS will consult with OGC by August 31, 2004 and request a written
legal opinion whether WS personnel violated appropriations law while procuring aerial services
and equipment for the aerial activities in Wyoming that are under question. WS will develop any
additional internal policies and management controls needed to ensure compliance with
appropriations laws, and; will continue to seek guidance from OGC to ensure compliance with
the John Doe Permanent Injunction.

Background and Objectives

Comment: WS believes that the OIG may not have adequately considered and discussed the
circumstances that lead to the need for a cooperative agreement in the Audit Report. As the
Audit Report states in Paragraph 4, page 1, “…when the government and a group find it
convenient to share resources for the public good, they may trade things of value to effect that
good…” Therefore, under a cooperative agreement, the Government is not bound to recoup its
costs as long as the cooperative relationship continues and is positively affecting the outcome. In
addition, a contract should be used whenever the principal purpose of the award is to acquire
goods and services for the Government while the contractor’s only benefit is the revenue from
the sale of these goods and services. A cooperative agreement should be used in situations
where the Federal Government and a cooperator share the cost of an activity or the transfer of
something of value is involved, while both the government and the cooperator have significant
involvement in the project and receive mutual benefit in the outcome of the cooperative
relationship. In this case, both WS and the [ ] benefited from this cooperative arrangement
in that WS was able to operate safe aircraft to conduct its aerial activities; while, at the same
time, WS livestock cooperators in Wyoming, including those belonging to the [ ], had their
livestock resources protected. If the intent of the cooperative agreement is to recoup the
Government’s portion of the costs, it would no longer be a cooperative agreement because the
sharing of resources would no longer pertain.
USDA/OIG-A/33099-1-KC                                                                     Page 28
In addition, WS and [ ] were establishing the parameters for the cooperative agreement under
good faith to provide association members (many of whom are WS cooperators) and the
livestock industry with a safe and cost effective aerial service.

WS is responsible for aviation and employee safety and for obtaining the best value for the
services provided. The cooperative agreement would have allowed WS exclusive use of the
aircraft, management of maintenance and repairs, and safe and reliable aircraft. When safety and
best value are in conflict, WS will continually choose safety over cost.

Page 2, Paragraphs 1 through 4:

Comment: WS agrees a contract should be in place before funds can be used to procure
equipment and services. The employee tasked with obtaining a purchase order failed to request
one. The fact that the employee failed to request the purchase order before the close of fiscal
year activities, however, does not mean there was not a bona fide need for the services as the
Audit Report contends.

FINDINGS AND RECOMMENDATIONS

Finding 1     WS’ Payments for Aircraft Repairs May Have Violated Appropriations Law


Page 3 and 4, paragraph 1 - 6

Comment: So noted, however, WS has a long standing relationship with the [ ]. WS has had
cooperative agreements to facilitate work in protecting livestock from predation with the
Wyoming livestock industry since the Congress passed the WS program’s authorizing language
in 1931. There was no reason to doubt the [ ] integrity through the negotiation process even
though a formal cooperative agreement was not signed at the time. WS and [ ] were operating
under good faith until all costs could be determined. It is unfortunate that the cooperative
agreement negotiations spanned over 2 fiscal years.

WS did not give the engine in question to the [ ]; the engine belongs to WS. The WS Aviation
Program maintains a data base and record tracking system that accounts for all capital property.
It can be clearly demonstrated that WS was, and continues to be, in control of this property and
can identify where it is located, its serial number, and its source of funding. Therefore, WS
allowed the company to bill for repairs totaling $25,207.92.

Page 4, No Binding Agreement

Comment: It should also be noted that the purchase order that was provided by APHIS,
Marketing and Regulatory Programs Business Services (MRPBS), on August 29, 2000, was not
the purchase order requested in the mentioned memo, but rather it was issued on a purchase
order that charged the expenses to the Contracting Officer’s VISA credit card; these types of
purchase orders cannot be amended to include additional expenses. The employee was
USDA/OIG-A/33099-1-KC                                                                    Page 29
instructed during the first week in August to secure a purchase order to cover all expenses that
would be received as a result of the agreement; for unknown reasons, this did not occur.

Page 5, No Bona Fide Need

Comment: WS does not agree that there was no bona fide need for the cooperative agreement.
As explained above, the need was to obtain an aircraft that would mutually benefit both the
Government and the livestock industry in a safe and cost-effective manner. Specific direction
was provided by the Under Secretary of Agriculture, Mike Dunn, on March 20, 1998, to review
the aviation safety program and make necessary changes to avert accidents to the maximum
extent possible. Congress has appropriated funds to WS for aircraft safety since 1999.

The Rock Springs aircraft supplied by the vendor was substandard (a safety risk), and
overpriced. In 1998, WS had existing contracts for three aircraft in Wyoming from a company in
Casper for $48.00 on 300 guaranteed hours, and $26.00 per hour thereafter. The duration of the
contracts was four years with annual options to renegotiate the price and/or discontinue the
contracts. The contracts were expiring in September of 1999 and the State Director of Wyoming
had been working with MRPBS on new contracts to replace them. The same company that had
had the contract was the sole bidder on the new contracts. To the State Director’s surprise and
dismay, the new contract prices per hour about doubled. There was no clear explanation as to
the sharp increase. Additionally, the bidder had purchased two of the aircraft from the previous
contractor and brought in a third airplane for the Rock Springs contract. This particular aircraft
had previously been leased to WS in California by the bidder. The National Aviation Manager
(NAM) had grounded it twice for safety hazards. The bidder had replaced several parts that were
defective and claimed it would meet WS safety standards. While in Rock Springs, the NAM
grounded the airplane again due to engine problems. The engine was replaced; however, the
frame appeared to be bent causing it to pull to one side (similar to a car out of alignment). This
latest problem surfaced in the spring of 2000. This alone demonstrates the need for a replacement
aircraft, and was in line with the direction given by the Under Secretary and APHIS management
to improve the safety of WS aircraft.

WS established the cooperative agreement with the [ ] to address safety concerns. WS had
intended to use the cooperative arrangement with [ ] for as long as WS is charged with
protecting livestock from predation. The long-range benefit far outweighs the perceived short-
term return on which the Audit Report focuses. WS planned to have the [ ] aircraft in place at
the beginning of FY 2000, and had notified the contractor that WS would not exercise the
renewal option on the Rock Springs contract. It was only after WS determined that the [ ]
aircraft could not be delivered until December 2000 that WS approached the contactor to extend
the existing contract. This was a mutual agreement between the contractor and WS.

Page 6, Ownership, Paragraph 1 and 2

Comment: WS maintains ownership of the engine in question. It is true that without the
agreement to provide the engine, the [ ] would not have been able to afford the aircraft;
however, under the terms of what a cooperative agreement is used for,”… to transfer things of
value in order to carry out a public purpose…,” providing an engine, along with the labor and
USDA/OIG-A/33099-1-KC                                                                      Page 30
parts, is within the scope of the cooperative agreement. At the time when the cooperative
agreement was negotiated, it was not necessarily the intention of WS to recoup costs during the
first year as the Audit Report implies. WS has over 500 cooperative agreements for various
programs that have been renewed annually for time periods in excess of 20 years. The advantage
of having exclusive rights to the aircraft, oversight of maintenance and repairs, and having the
use of a reliable safe aircraft over several years far outweighs recouping costs over a one year
period.

The Congress provided specific authority to WS under section 776 of the Consolidated
Appropriations Act of 2004 to enter into cooperative agreements with other entities to lease
aircraft if it is determined that the objectives of the agreement will serve a mutual interest of the
parties to the agreement in carrying out the programs administered by WS, and that all parties
will contribute resources to the accomplishment of these objectives.

Page 7, Ownership, Paragraph 3

Comment: Recovery on investments would have been made up over a longer period of time
than the Audit Report indicates. The Audit Report presumed that the cooperative arrangement
was for one year; however, WS often renews cooperative agreements for multiple years. WS
never intended to recoup the costs in one year, but rather to realize savings to both the
Government and the public over a longer period of time. Conservatively speaking, the
cooperative agreement would have saved the taxpayers about $100,000 over 20 years, not to
mention the benefits of safety to WS employees. With the express authority given by Congress
in 2003, WS can enter into cooperative agreements that mutually benefit the Government and the
livestock industry.

APHIS’ property policy requires that WS track items with an original acquisition cost over
$5,000, or are considered sensitive (e.g., firearms) on official property inventories. Therefore,
none of the parts, with the exception of the engine, constitute “accountable property” according
to APHIS policy, and WS is not required to track them on an official basis.

Page 7 and 8, Anticipated Lease Payment…

Comment: A factor that urged the WS State Director to move away from the contract in Rock
Springs was the condition of the existing aircraft provided by the contractor. It had been
grounded in FY 1999. The Audit Report is focused only on lease payments. After a series of
accidents and fatalities in 1996 – 1998, WS was mandated to review the safety planning and
implementing procedures that would focus on safety first. WS has moved away from low cost
bidders to best value in the aircraft procurement process. Although cost is a factor in
procurement decisions, employee safety is paramount.

Recommendation No. 1

The OIG recommends requesting a written legal opinion from OGC as to whether financial and
equipment contributions, exceeding 50 percent of the purchase price for the fixed-wing aircraft

USDA/OIG-A/33099-1-KC                                                                         Page 31
and paid without a binding agreement or a bona fide need, constitute a violation of
appropriations law.

APHIS Response: WS disagrees that the contribution to the [ ] aircraft exceeded 50 percent
of the purchase price; the engine is still WS property, as indicated in the audit. The comparison
should be the difference of what WS provided ($25,207.92), and what [ ] provided
($34,450.00). WS also disagrees there was no bona fide need. Nonetheless, WS will request a
legal opinion from OGC by August 31, 2004 on whether financial and equipment contributions
constitute a violation of appropriations law.

Recommendation No. 2

If it is determined that WS personnel violated appropriations law, initiate appropriate
disciplinary actions.

APHIS Response: If it is determined that WS personnel violated appropriations law, the WS
Deputy Administrator will initiate appropriate disciplinary action.

Recommendation No. 3

Consult with the OGC as to the actions WS can and should take to rectify this questionable
transaction, including ownership of the plane, recovering the APHIS funds, and protecting the
Government’s interest.

APHIS Response: WS will consult with appropriate USDA and APHIS officials by September
30, 2004.

Finding 2      WS Violated Procurement Regulations by Splitting Invoice Amounts Into
               Five Separate Payments to be Paid by Purchase Cards

Comment: The invoice was clearly split, and WS has since taken actions to prevent such
actions from occurring again in the future (please refer to APHIS response to Recommendation
No. 4 below).

Recommendation No. 4

Initiate disciplinary actions based on employees’ roles and responsibilities related to
unauthorized funding ratification and consider revocation of purchase card authorizations of all
employees who directed the orders be split and those who made the payments.

APHIS Response: In October 2000, APHIS began utilizing a new financial system that allows
for better accountability and enhanced APHIS’ abilities to produce different financial reports. In
addition, the WS Western Regional Office hired a higher level Budget Analyst to replace the
previous Budget Analyst, and created another Budget Analyst position to work solely on WS
aviation accounts. In addition, MRPBS hired a certified Contracting Specialist (who is
supervised by the APHIS, MRPBS, contracting group in Minneapolis and funded by WS), who
USDA/OIG-A/33099-1-KC                                                                     Page 32
is responsible for utilizing proper contracting and procurement processes for the WS aviation
program. These personnel changes have allowed for many more checks and balances in our
financial and procurement processing. In addition, the WS Western Region Administrative
Officer is overseeing the financial reports for all accounts.

In processing VISA credit card charges, the following procedures have been implemented: the
Western Region Assistant Regional Directors review all State Director charges each month; the
Western Region Administrative Officer reviews a new quarterly report that displays all Western
Region VISA credit card charges by cardholder; the Western Regional Director reviews the
reports for all card holders for whom he supervises; the number of employees authorized to write
VISA convenience checks has been reduced; and VISA convenience checks can only be used on
a limited basis, mostly for small businesses, and state and local governments who do not accept
the VISA credit card.

In addition, the Western Regional Director has required all Western Region State Directors,
Budget Analysts, and Budget Technicians attend Federal Appropriations Law training. The
Budget Analysts were also required to attend an APHIS Agreements training course designed
especially for WS, and WS is currently working with the APHIS, MRPBS, Agreements Services
Center to develop and conduct another cooperative agreements training course designed for its
State Directors, which also will be a required course.

The WS Deputy Administrator also will request by August 31, 2004 that APHIS, MRPBS,
Human Resources Division, Employee Misconduct Investigations Branch, conduct an audit of
employees' roles and responsibilities with regard to aerial operations-related credit card
transactions and accountability. Based on the recommendations, the National office will
implement necessary and appropriate actions.

Section 2. MANAGEMENT CONTROLS OVER THE WS AERIAL
           ACQUISITION PROGRAM ARE LACKING

Finding 3 WS Management Did Not Provide an Adequate Control Structure

Page 11, Paragraph 1 - Integrity Claim

Comment: WS’ integrity is continually supported and reinforced via a dedicated Senior
Contracting Officer that ensures the Federal Acquisition Regulation (FAR) and Agriculture
Acquisition Regulations (AGAR) are followed and adhered to. Competition is highly valued and
supported by the Senior Contracting Officer. WS has always been concerned with the integrity
of its programs and providing the best value to its customers and taxpayers. Budgetary
constraints did not allow for the position of Contracting Officer to exist until April 2003.

Page 11, Paragraph 1 - WS senior managers…issued no WS specific policies or procedures that
governed aircraft acquisitions.

Comment: No WS specific policies or procedures to govern the acquisition of aircraft are
necessary as the Federal Acquisition Regulation (FAR) and the Agriculture Acquisition
USDA/OIG-A/33099-1-KC                                                                    Page 33
Regulation (AGAR) govern the acquisition of equipment. FAR subpart 7.4, Equipment Lease or
Purchase, provides the guidance pertaining to the decision to acquire equipment by lease or
purchase. This subpart applies to both the initial acquisition of equipment and the renewal or
extension of existing equipment leases.

Per FAR subpart 7.401, “agencies should consider whether to lease or purchase equipment based
on a case-by-case basis evaluation of comparative costs and other factors.” One internal study
should not be the sole resource to guide each procurement decision.

Page 12, Paragraph 2 - “WS’ determination to supplant a procurement contract with a
cooperative agreement”

Comment: WS was not determined to supplant a contract with a cooperative agreement. WS is
accountable to support its mission in providing the best value to WS’ customers and taxpayers.
Utilizing the cooperative agreement tool was in the best interests of the Government.

Page 12, Paragraph 5 - Such policy should address the decision points that result in selection of
the proper instrument (contract or agreement) to acquire aircraft.

Comment: The selection of the proper instrument to acquire aircraft is conducted on a case-by-
case decision. WS is tasked with a mission of managing wildlife damage to agricultural
resources, which includes managing a safe aerial program for protecting livestock, big game, and
other wildlife from predators; depopulating wild deer and elk for disease testing; protecting
agricultural crops from birds; capturing wolves and other threatened and endangered species for
relocation to other areas; assisting with search and rescue operations; conducting wildlife surveys
and censusing; and, distributing rabies vaccines and acetaminophen baits. It is WS’ role and
responsibility to determine the most appropriate tool to utilize to successfully accomplish its
mission. WS’ objective is not to profit from operations, but rather to provide cooperators with
effective results while providing WS employees with safe working conditions.

Page 13, No. 3. WS should ensure competition for agreements to the maximum extent
practicable.

Comment: Noted. WS will ensure competition for aerial services to the maximum extent
practicable, and document rationale for sole source decisions for agreements.

Recommendation No. 5

Develop a cohesive management control structure for aircraft to include management decision
processes and models to properly evaluate ownership/operating options, terminate all
inappropriate cooperative agreements, and to obtain aircraft.

APHIS Response: MRPBS hired a full-time warranted Contracting Officer in April 2003 to
oversee all procurement activities for the aviation program. This individual provides guidance to
the National Aviation Manager and ensures compliance with all procurement regulations. In
addition, while the WS Western Regional Office manages the acquisition of aerial services and
USDA/OIG-A/33099-1-KC                                                                     Page 34
equipment to provide close coordination with recipients of the service, WS will now monitor
cooperative agreements and contracts for the aerial activities at the national level, beginning
October 1, 2004, to improve processes for acquiring aerial services and equipment.

Recommendation No. 6.

Require the WS to develop and issue acquisition guidelines that are based on the decision
processes and models described in Recommendation 5 and that set forth in terms specific to the
WS mission and its programs the requirements entailed in acquiring aircraft and other high-value
assets through the procurement process. These guidelines should be in harmony with the
appropriate Federal procurement regulations and the APHIS Manual, and should be in sufficient
detail to clarify the decision process in situations peculiar to the WS.

APHIS Response: WS believes that FAR subpart 7.4 contains sufficient acquisition procedures
and sees no need for additional informal guidelines. WS, however, will move management
responsibility of these acquisition activities to the national office. In addition, WS will continue
to analyze each individual need and match the appropriate tool to the need to successfully
accomplish our mission.



Finding 4 WS Senior Management Did Not Ensure That Acquisition Decisions
          Complied With Internal Study Results

Comment: Airplanes flown by WS would be identical (make and model) to that of the special
interest group as WS operates only two airplane makes and models, the Piper Super Cub and
Aviat Husky. WS has operated Piper Super Cubs for over 30 years.

The 1999 internal study conducted by Conklin and DeDecker is simply one tool that WS uses to
determine the most appropriate approach in accomplishing WS’ mission. The 1999 internal
study is just that, a study – it is not law, nor a mandated document. The FAR is the mandated
regulation that the Federal Government shall use to determine whether a piece of equipment
should be leased or purchased. WS considers other factors such as budget, length of need,
reliability, availability, safety, and the best value to the mission and taxpayers when analyzing
the best approach to satisfy aviation requirements.

The internal study was never accepted by Agency officials. One of the contributing factors as to
why the study was never accepted was because it did not accurately capture the reality of WS’
aviation mission. For instance, an agency-owned aircraft is generally operated for a period of 17
years, not 5 years as indicated in the 1999 internal study.

Page 15, Paragraph 3 - The advertisements also showed that two of the planes were identical to
those owned by the interest group. (Piper PA-18 Super Cub)

Comment: Forty four percent of WS’ leased aircrafts are Piper PA-18 Super Cubs. Ninety
three percent of WS’ owned aircrafts are Piper PA-18 Super Cubs. It is no surprise that WS
USDA/OIG-A/33099-1-KC                                                                       Page 35
advertised for a Piper PA-18 Super Cub, as the Super Cub is the mainstay of the fleet. The fact
that the special interest group owned Super Cubs is not evidence of bias.

Recommendation No. 7

Require that the WS senior management ensure aircraft acquisition decisions are consistent with
its internal study results and in the best interest of the Government.

APHIS Response: WS acquisition decisions are made to accomplish the programs mission and
not to benefit a contractor or special interest group. WS acquires its aircraft on a case-by-case
basis rather than under one-size-fits-all approach. The study WS commissioned to determine the
most cost-effective options for acquiring aircraft was based on a five year projection and not the
average lifetime of a WS airplane, which is seventeen years. Cost analysis indicates that the
Aviation Study results were obtained from incorrect information acquired. Also, the internal
study results do not reflect intangibles such as customer confidence in long term commitment,
tighter control of maintenance, or lack of vendor competition. The internal study is used as one
of many tools in the decision-making process; however decisions are not based entirely on the
internal study but rather a summation which will best accomplish the program mission.

WS will continue to follow the Federal Acquisition Regulations, subpart 7.4, and any other
appropriate information to determine if a lease or buy is the best option for the mission.

Recommendation No. 8

Develop controls to ensure that pre-solicitation notices to purchase     aircraft appear in section
15 of the Federal Business Opportunities for vendors.

APHIS Response: MRPBS hired a Senior Contracting Officer to work full time on the WS
aerial operations in April 2003. This individual ensures that all pre-solicitation notices appear in
the correct classification code. Interested parties have eight ways to search FedBizOpps to locate
potential opportunities. WS recommends that interested parties utilize all available tools to
ensure they identify all opportunities.

Finding 5 APHIS WS Policies and Procedures for Processing of Freedom of
          Information Act (FOIA) Requests Were Not Always Followed

Recommendation No. 9

Counsel WS Regional personnel as to the requirements associated with agency processing of
FOIA requests for records.

APHIS Response: WS’ National Office sent out on July 7, 2004 an official reminder to all WS
personnel of the requirements associated with agency processing of FOIA requests for records.

Recommendation No. 10

USDA/OIG-A/33099-1-KC                                                                      Page 36
Consult with the OGC as to whether the actions taken by WS Western Region personnel violated
the court injunction limiting distribution or release of information pertaining to cooperating
entities and take appropriate administrative action to admonish responsible personnel for any
inappropriate actions.

APHIS Response: WS will consult with OGC by August 31, 2004 and take appropriate actions
by December 1, 2004 to ensure compliance with the John Doe permanent Injunction by WS
personnel.




USDA/OIG-A/33099-1-KC                                                                 Page 37
Informational copies of this report have been distributed to:

Administrator, APHIS
       Attn: Deputy Administrator for Marketing Regulatory Program Business
              Services                                                        (9)
Government Accountability Office                                              (1)
Office of Management and Budget                                               (1)
Office of the Chief Financial Officer
       Director, Planning and Accountability Division                         (1)
